No. 20-8291
IN THE SUPREME COURT OF THE UNITED STATES

SCOTT WEHMHOEFER, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 11th day of August 2021.

Edwin S. Kneedler
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

August 11, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-8291
WEHMHOEFER, SCOTT
USA

BRIANNA FULLER MIRCHEFF
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012-4202
213-894-4408
BRIANNA_MIRCHEFF@FD.ORG
213-894-0081(Fax)

